WJ
Supreme Court. U.S.
FILED '

AUG 1 1 2021
■QFFtee-QF-THE CLERK

No.
In The
Supreme Court of the United States

William H. Viehweg,
Petitioner
v.
Sirius XM Radio, Inc.
Respondent

On Petition For Writ Of Certiorari
To The United States Court of Appeals for the
Seventh Circuit
PETITION FOR WRIT OF CERTIORARI

William H. Viehweg
114 W. 2nd South
Mt. Olive, II 62069
217-999-5061

QUESTION PRESENTED FOR REVIEW
Whether separate attorneys’ representing a
defendant corporation and attorneys’ representing a
non-party key witness, mutual claim of a protective
legal privilege, in a pro se civil action, filed in federal
court, based on the legal premise that a pro se’s
previous exercise of his right to self-representation is
evidence both of personal bad character and that all
of his prior court cases, including petitions for writ of
certiorari, were meritless and for improper purpose,
is prohibited by 28 U. S. Code §1654, and is in such
clear and convincing contempt of the federal
judiciary’s duty of impartiality, including this
Supreme Court of the United States, that the court
of first instance, on its own initiative, should
sanction
the
offending
attorneys
with
disqualification, as all subsequent proceedings would
be inherently prejudicially tainted, and failure to so
sanction, constitutes punishment contrary to
Bordenkirker v Haves. 434 U.S. 357, 363 (1978), and
denial of the Constitution of the United States
Fourteenth Amendment's guarantee of equal
protection of the law.

i

TABLE OF CONTENTS
Page
Question Presented for Review

1

Table of Authorities

11

Directly Related Proceedings

1

Citation of Reports of Opinions

1

Basis for Jurisdiction in this Court

1

Provisions of Law Involved in Case

2

Statement of the Case

2

Argument
Opening Statement
Law
Equal Protection
Closing

8
9
13
14

Appendix - Table of Contents

ii

^EABLE-Of^AUT-HORFHES
Page

18 U. S. C. §241
18 U. S. C. §1503
18 U. S. C. §1512
28 U. S. C. §1254(1)
28 U. S. C. §1654

7,12
7,12
7,11
1
2,7,9,12,15

Bordenkirker v Haves,
434 U.S. 357, 363 (1978)

7,9,12,15
13

Supreme Court Rule 5
Federal Rule of Civil
Procedure 11
Federal Rule of Civil
Procedure 5(b)(2)(E)
Local Rule of the United States
District Court for the Central
District of Illinois 5.5(B)(1)

iii

11
2

2

DIRECTLY RELATED PROCEEDINGS
The underlying case originated in the United
States District Court, Central District of Illinois,
docket number 3:17-cv-03140, and was appealed to
the United States Court of Appeals for the Seventh
Circuit, docket number 20-2166. No other courts or
proceedings were involved.

CITATIONS OF REPORTS OF OPINIONS
Petitioner has no knowledge of any official or
unofficial report of the opinions and orders entered
in this case by courts or administrative agencies.
BASIS FOR JURISDICTION IN THIS COURT
The United States Court of Appeals for the
Seventh Circuit, in Viehweg v. Sirius XM Radio, Inc.,
No 20-2166, entered its order denying Petitioner's
appeal on April 13, 2021, and entered its order
denying Petitioner's Petition for Rehearing En Bank
on May 20, 2021.
There was no request for an
extension of time to file a petition for writ of
certiorari. 28 U.S.C. §1254(1) provides this court
jurisdiction to review this petition for writ of
certiorari.

1

i>Re¥iSIONS OF fcAW-iW-etrVE-B^-eASE28 U.S.C. 1654. Appearance personally or by counsel.
In all courts of the United States the parties
may plead and conduct their own cases personally or
by counsel as, by the rules of such courts,
respectively, are permitted to manage and conduct
causes therein.
STATEMENT OF THE CASE
Petitioner brought this case against
Respondent corporation in district court alleging two
counts of defamation under Illinois state law, with
federal jurisdiction based on diversity of citizenship.
Respondent was represented by the law firm of Mac
Murray and Shuster LLP 1 . Petitioner, a
non-attorney, represented himself, and as he did
not have personal internet service, in compliance
with Central District of Illinois Local Rule 5.5(B)(1)2,
he did not sign up for electronic filing, and in
compliance with Federal Rule of Civil Procedure
5(b)(2)(E), he chose to not consent to service by
electronic means.

1 Though the lead attorney remained the same, five attorneys
from Mac Murray and Shuster LLP have entered their
appearances in this case.
2 Unless the court, in its discretion, grants leave to a pro se
filer to file electronically, pro se filers must file paper originals

2

Respondent admitted the existence of the first
-afteged-H-eiephone-eonversat-ion—wit-h~the—wife—of—acustomer
but
denied
it
was
defamatory.
Respondent denied the existence of a second
telephone conversation with the wife. Respondent
admits that it knowingly consolidated Petitioner's
account with the account of another person with a
similar name and living within a forty mile
proximity, that said consolidation was done without
knowledge by either account holder, and that said
consolidation resulted in unauthorized transactions,
including charging the husband's credit card for
services provided to the Petitioner. To resolve the
situation, Respondent left the accounts consolidated,
made no refunds on the unauthorized credit card
charges, changed the husband's account to his wife's
name, sold the wife additional services, and
unilaterally terminated service and contact with the
Petitioner.
During discovery, Respondent produced a
transcript of the first telephone conversation which
repeatedly includes the words "Privacy Act", "fraud",
and "police" and ends with the following dialogue:
WIFE: "Okay, that's what I needed to know.
I am going to make a phone call and the(n)
you guys will hear back from us in a little
while."
SIRIUS: Not a problem ma'am. I will be
of all complaints, pleadings, motions, affidavits, briefs, and
other documents.

3

making notation of that on the account. So as
Bf—right—now—ther-e^—bo—changes—on—thesubscription.
WIFE: No changes. There's going to be a
police report. Because if you guys had him
confirm the email address he fraudulently
knew that that wasn't his. So that, that's
what I've been trying to get to the bottom of."
The telephone recordings produced by
Respondent, evidence that Viehweg had repeatedly
stated that he did not have an email address, and
never confirmed an email address. The records
produced by Respondent contain no evidence of any
account notations made regarding the words Privacy
Act, fraud, or police, any notation that the wife was
contacting the police, or that the wife stated that she
would be calling back.
Petitioner subpoenaed documents from a
municipal police department which produced a
dispatch log stating that the wife was advised by the
police chief to contact the county sheriff and mention
Petitioner subpoenaed
the term identity theft,
documents from the county sheriff’s office which
produced an incident report stating that the wife had
contacted them, and that the deputies had
immediately contacted the Petitioner.
interrogatories
propounded
Respondent
requesting that Petitioner identify "each and every
criminal case" and "each and every civil case" to
After Petitioner
which he had been a party.

4

successfully moved the court to order Respondent to
■J3. set—deposition—dates,- Petitioner—served—w4fe—andhusband with a deposition subpoena duces tecum.
When neither the husband or wife appeared for their
depositions, Petitioner suspended the depositions,
and at the subsequent continuance, both husband
and wife appeared represented by the law firm of
Duane Morris, LLP3. At this time, the scheduling
order prohibited adding parties.
During said depositions, both deponents
testified that an unknown party was paying their
legal fees, and that neither had concerns about
Petitioner suing them. The husband testified that
he had never called the police and further testified:
“I believe she made a call to Sirius .... I believe she
I believe Sirius gave her some
followed up
directions on how to handle the problem....” The
transcripts of said depositions contain no evidence of
any questionable conduct by Respondent.
After the deposition, Petitioner obtained a
copy of the husband's telephone call to county
Petitioner also
sheriffs department dispatch,
moved to compel the husband and wife to produce
documents. Both Respondent and the husband and
wife objected, claiming the privilege of common
interest.
3 The law firm of Duane Morris is national, with over 600
attorneys, with an office in Washington D.C., and regularly
practices before the Supreme Court of the United States.

5

Respondent, in a memorandum in objection,
—stated-:
"anyone subpoenaed by this Plaintiff would
be understandably concerned about having
any involvement .... It is understandable,
then, that the Other Viehwegs would be
concerned about the Plaintiff and his conduct
and the possibility that he might bring some
lawsuit against them, too. Sirius' interest is to
defend this case and bring it to a conclusion as
soon as possible. Their interests are aligned
and communications between then should
therefore be protected by the common interest
doctrine."
[See Appendix Page 10]
The wife and husband, in a memorandum in
opposition, stated:
"Mr. Viehweg is a sophisticated pro se litigant
who has initiated at least ten other lawsuits in
Mr.
addition to the present action
Viehweg has lodged more than one writ of
certiorari with the Supreme Court of the
United States."
Said memorandum then listed, by title and citation
only, Petitioner's previous law suits going as far back
as 1987. [See Appendix Page 13]
Magistrate Judge Tom Schanzle-Haskins, in
denying Petitioner's motion to compel, stated that
“the subpoenas did not command production of their
attorney’s communications” and "The matter of
privilege is not at issue." Respondent moved for

6

summary judgment.
--------- Petitioner^n©ved-Ter-an-©rder—fce-shew^-eause
alleging, in reference to the Respondent's and the
wife and husband's mutual claim of the common
interest claim, "that there was no recognizable legal
claim for common interest, as the law does not
recognize bias and prejudice against a pro se; and
that their purpose for asserting the doctrine was
improper." Respondent objected stating "Plaintiff
wants sanctions against Sirius XM because the
Married Viehwegs fear he will bring groundless
litigation against them based on his reputation for
doing same."
On March 22, 2020, Judge Richard Mills
granted
Respondent’s
motion
for
summary
judgment, and stated, "The remaining motions will
be denied" and "The Plaintiffs Motion for Order to
Show Cause [d/e 155] is DENIED." On March 25,
2020, judgment was entered in favor of Respondent.
On April 21, 2020, Petitioner moved to amend
the judgment. On May 29, 2020, Judge Richard
On June 29, 2020,
Mills denied said motion.
Petitioner filed his notice of appeal.
Petitioner's brief on appeal argued that his
right to self-representation was oppressed and cited
28 U. S. Code §1654; Bordenkirker v Haves. 434 U.S.
357, 363 (1978); 18 U. S. C. §241; 18 U. S. C. §1512;
and 18 U. S. C. §1503. Respondent's brief on appeal
stated that the cases Petitioner cited were "wholly
inapposite".
On April 13, 2021, the Seventh Circuit, Judge

7

Diane S. Sykes, Judge Michael S. Kanne, and Judge
-Diane-Pt Wood, affir-med-t-he-distr-iet-eeuffe-r-uli-ng-r
stating "To be held in civil contempt, a person must
have violated an unambiguous court order" and
"Viehweg provided no evidence of wrongdoing, nor
was misconduct apparent from the record". [See
Appendix Page 1]
On April 26, 2021, Petitioner filed a motion for
extension of time to file a petition for rehearing en
On April 26, 2021, the appellate court
banc.
granted said motion extending the due date to May
6, 2021. On May 4, 2021 Petitioner filed his petition
On May 20, 2021 the
for rehearing en banc,
appellate court denied said petition. [See Appendix
Page 8]
Petitioner petitions for a writ of certiorari.
ARGUMENT
- Opening Statement This case stands for the legal premise that a
pro se can represent himself in the federal courts,
asserting all rights, privileges, claims, and defenses,
without negative inference as to his personal
character, and without implication that his
pleadings are inherently meritless and for improper
purpose.
This case is about a non-attorney pro se
exercising his right to seek relief through the courts,
and asserting all his rights and privileges, including
the right to self-representation, appeals, and

8

petitioning for writ of certiorari, and the opposing
■corporate—party, (which—is—prohibited—fromself-representation),
and
the
key
witness,
(represented by a prominent legal firm paid for by
some unknown benefactor) mutually claiming a
protective privilege on the legal basis that the pro
se's previous and instant exercise of his right to seek
redress in the courts, is evidence of personal bad
character and meritless pleadings made in bad faith.
This case is important, as said claim, mutually
made by two law firms, one a nationally prominent
law firm which regularly practices before this
considered
as
should be
Supreme
Court,
representative of the pervasiveness of such wrongful
prejudice within the entire legal profession, and the
failure of the lower courts to sanction said claim
should be considered as representative of the
reluctance of all the lower courts to affirmatively
address such misconduct by officers of the court.
-LAW28 U. S. Code §1654, permitting individuals to
proceed personally in all federal courts without
counsel, though not expressly, inherently prohibits
negative assumptions based solely on the exercise of
said right.
Bordenkirker v Haves. 434 U.S. 357, 363
(1978), holding that "for while an individual
certainly may be penalized for violating the law, he
just as certainly may not be punished for exercising
a protected statutory or constitutional right",

9

certainly includes the statutory right per 28 U. S.
€odoJ1654r
As a matter of law, the mere possibility of
future litigation does not constitute a common legal
issue as required by the common interest doctrine as
the possibility of future litigation is inherent in the
legal process. Further, as a matter of law, appeals
and petitions for writ of certiorari are continuations
of the underlying case, and do not constitute,
regarding the common interest doctrine, future
litigation. As a matter of law, case titles do not
evidence merit or intent. Therefore the claim of
common interest was without legal merit.
Statements such as “anyone subpoenaed by
this Plaintiff would be understandably concerned
about any involvement”, “Mr. Viehweg is a
sophisticated pro se litigant who has initiated at
least ten other lawsuits ...” and “Mr. Viehweg has
lodged more than one writ of certiorari with the
supreme Court of the United States”, have no
possible legal merit regarding any possible legal
issue in support of a claim of common interest, and
clearly infer bad personal character and meritless
pleadings due to Petitioner’s exercise of his right of
self-representation.
Representation by an officer of the court, even
if inferred, that citations of previous case titles
warrant the federal courts to consider persons
exercising their right to self-representation to be of
bad moral character and his pleadings meritless and
for improper purpose, constitutes oppression of the

10

pro se's right to self-representation and contempt of
-t-he-dutyof the j udieiai-systeffl-fco-be-impart-fai-—If-anattorney’s professional conduct evidences his own
clear and convincing bias and prejudice against the
right of self-representation, said attorney warrants
disqualification from case involving a pro se plaintiff.
Such claims are in clear and convincing
violation of Federal Rule of Civil Procedure 11,
which prohibits claims not legally warranted, factual
contentions without evidentiary support, and
Said
presentations for improper purpose,
attorneys could not have had any reasonable
expectation that the court would legally recognize
said claim. Said attorneys clearly intended to
prejudice the court against Petitioner by using said
claim as a vehicle to present to the court citations of
Petitioner's previous law suits, including his
Said Rule
previous petition for writ of certiorari,
empowers the court, on its own initiative, to sanction
said claim as contempt of court.
Attorneys' who mutually claim a protective
privilege by attacking a person’s character due to his
choice of self-representation, should be considered to
have wrongfully influenced their client and other
witnesses 4 , to have attempted to wrongfully

engages m
4Per 18 U.S.C. §1512(b)(1), "Whoever knowingly
misleading conduct toward another person, with intent to
influence .... the testimony of any person in an official
proceeding .... shall be fined .... or imprisoned not more than 20
years, or both."

11

influence the court 5 , and to have wrongfully
-conspired—to..oppress—t-he—pro—se-s—exercise of hisstatutory right of self-representation6. No previous
court order should be required when a pro se seeks
relief from professional misconduct that is prohibited
by federal criminal codes, as, absent sanctions, all
subsequent proceedings are inherently tainted by the
appearance of bias and prejudice by the court itself.
The remedy is to disqualify said attorneys from the
case.
The federal courts should have the first duty
to protect litigants appearing before it under 28
U.S.C §1654 from misconduct by the court's own
officers. Knowing failure of the court to sanction
such conduct evidenced by the record itself, should

5Per 18 U.S.C. §1503, "Whoever corruptly

endeavors to
influence .... any .... officer in or of any court of the United
States .... in the discharge of his duty ... the punishment is ....
imprisonment for not more than 10 years, a fine ...., or both."

6Per 18 U.S.C. §241, "If two or more persons conspire
to.....oppress...... any person in any State, Territory,
Commonwealth, Possession, or District in the free
exercise or enjoyment of any right or privilege
secured to him by the Constitution or laws of the
United States, or because of his having so exercised
they shall be fined under this title or
the same
imprisoned not more than ten years, or both."

12

constitute punishment, prohibited by BordenKirker
*. * •
.x ;

• - Equal Protection Attorneys enter their appearance , in the
federal courts based on current good standing.7 Yet,
in this case, said attorneys' mutual claim ■ for
common interest presented character evidence
against the Pro se Petitioner over twenty years old.
.,, -Attorneys, as members of the legal professionenter their appearance in the federal courts to
exercise their clients' rights and privileges, including
the right to seek redress in the federal courts, to
appeal, and to petition for writ of certiorari., Yet, in
this case, said attorneys’ mutual claim for common
interest seeks legal protection from the Petitioner's
personal exercise of his rights and. privileges,
including the very same rights to seek redress in the
federal courts, to appeal, and to petition for writ of
certiorari.
A reasonable person, such as a juror, could
readily conclude that if officers of the federal courts
can officially claim that a person is of bad moral
character based on his choice of self-representation,
without being sanctioned .by-the "court, that ,that
person , must i be of bad moral character as a
7Per Supreme Court Rule 5, this court only looks back three . *
years: t
nAi-jr ' 1
r V

C -

r i. .v ft i

.

1

13

self-representation, was presumed to be, as a matter
nf—4-aw;—of—bad—moral—character-—and—bis—voieemeritless.
It should shock the conscience of this court
that a law firm of national prominence has, with
another law firm, made a mutual legal claim, based
on unlawful bias and prejudice. Failure of the lower
courts to sanction such prejudicial claims can imply
sympathy, or agreement, and encourages similar
claims by other attorneys, threatening the integrity
of the entire judicial system. This court should use
this case to clearly state that 28 U. S. Code §1654
prohibits negative inferences based solely upon its
assertion, that Bordenkirker v Haves includes
unsanctioned oppression based upon the assertion of
the right of self-representation per U. S. Code §1654,
and that the federal courts, with the power to
supervise its officers of the court, have the first duty
to sanction such conduct. A ruling by this Court
would ensure conformity by providing the lower
courts guidance, the attorneys appearing before the
lower courts a warning, and the pro se seeking
justice, a citation, directly on point.

Respectfully submitted^

Cv) rSN\
William H. Viehweg - Petitioner
114 W. 2nd South
Mt. Olive, II 62069
1-217-999-5061

15

(\

